U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

February 12, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Terrance Nathaniel Brown, Jr. v. United States, No. 20-6374
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 13,
2020. The government’s response is now due, after two extensions, on February 18, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including March 22, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Because petitioner is an incarcerated federal prisoner proceeding pro se, we have not
obtained his consent to this request.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-6374
BROWN, TERRANCE NATHANIEL, JR.
USA

TERRANCE NATHANIEL BROWN, JR.
21574-084
FCI BECKLEY
PO BOX 350
BEAVER, WV 25813

